<html>
<title> - ELECTRONIC GOVERNMENT: A PROGRESS REPORT ON THE SUCCESSES AND CHALLENGES OF GOVERNMENT-WIDE INFORMATION TECHNOLOGY SOLUTIONS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





     ELECTRONIC GOVERNMENT: A PROGRESS REPORT ON THE SUCCESSES AND 
     CHALLENGES OF GOVERNMENT-WIDE INFORMATION TECHNOLOGY SOLUTIONS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                               THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 24, 2004

                               __________

                           Serial No. 108-195

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-780                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Technology, Information Policy, Intergovernmental 
                        Relations and the Census

                   ADAM H. PUTNAM, Florida, Chairman
CANDICE S. MILLER, Michigan          WM. LACY CLAY, Missouri
DOUG OSE, California                 STEPHEN F. LYNCH, Massachusetts
TIM MURPHY, Pennsylvania             ------ ------
MICHAEL R. TURNER, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                        Bob Dix, Staff Director
                 Chip Walker, Professional Staff Member
                         Juliana French, Clerk
            Adam Bordes, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 24, 2004...................................     1
Statement of:
    Evans, Karen S., Administrator, E-Government and Information 
      Technology, Office of Management and Budget; Linda Koontz, 
      Director, Information Management, U.S. General Accounting 
      Office; Martin Wagner, Associate Administrator, Office of 
      Government-wide Policy, U.S. General Services 
      Administration; M.J. Jameson, Associate Administrator (USA 
      Services), Office of Citizen Services and Communication, 
      U.S. General Services Administration; Norman Enger, 
      Director, E-Government (E-Payroll), Office of Personnel 
      Management; Kim Nelson, Chief Information Officer (E-
      Rulemaking Initiative), Environmental Protection Agency; 
      and George Strawn, Chief Information Officer (E-Grants), 
      Division of Grants and Agreements, National Science 
      Foundation.................................................    11
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     8
    Enger, Norman, Director, E-Government (E-Payroll), Office of 
      Personnel Management, prepared statement of................   109
    Evans, Karen S., Administrator, E-Government and Information 
      Technology, Office of Management and Budget, prepared 
      statement of...............................................    14
    Jameson, M.J., Associate Administrator (USA Services), Office 
      of Citizen Services and Communication, U.S. General 
      Services Administration, prepared statement of.............   100
    Koontz, Linda, Director, Information Management, U.S. General 
      Accounting Office, prepared statement of...................    21
    Nelson, Kim, Chief Information Officer (E-Rulemaking 
      Initiative), Environmental Protection Agency, prepared 
      statement of...............................................   119
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Strawn, George, Chief Information Officer (E-Grants), 
      Division of Grants and Agreements, National Science 
      Foundation, prepared statement of..........................   127
    Wagner, Martin, Associate Administrator, Office of 
      Government-wide Policy, U.S. General Services 
      Administration:
        Information concerning revenue...........................   146
        Information concerning Web sites.........................   132
        Prepared statement of....................................    93

 
     ELECTRONIC GOVERNMENT: A PROGRESS REPORT ON THE SUCCESSES AND 
     CHALLENGES OF GOVERNMENT-WIDE INFORMATION TECHNOLOGY SOLUTIONS

                              ----------                              


                       WEDNESDAY, MARCH 24, 2004

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
        Intergovernmental Relations and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2154, Rayburn House Office Building, Hon. Adam H. Putnam 
(chairman of the subcommittee) presiding.
    Present: Representatives Putnam and Clay.
    Staff present: Bob Dix, staff director; John Hambel, 
counsel; Chip Walker and Ursula Wojciechowski, professional 
staff members; Shannon Weinberg and Dan Daly, professional 
staff members and deputy counsels; Juliana French, clerk; Adam 
Bordes and David McMillen, minority professional staff members; 
and Jean Gosa, minority assistant clerk.
    Mr. Putnam. A quorum being present, this hearing of the 
Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and the Census will come to order.
    Good afternoon and welcome to the subcommittee's hearing on 
``Electronic Government: A Progress Report on the Successes and 
Challenges of Government-wide Information Technology 
Solutions.''
    During the first session of the 108th Congress, this 
subcommittee focused a great deal of attention on the oversight 
of the Federal Government's e-government element of the 
President's management agenda. With a commitment to an 
aggressive and sustained effort, the launch of the President's 
management agenda in August 2001 established a strategy for 
transforming the Federal Government in a manner that produces 
measurable results that matter in the lives of the American 
people. One of the five components of the PMA is Electronic 
Government, intended to utilize the power and creativity of 
information technology to produce a more citizen-centric 
government, as well as one that is more efficient, productive, 
and cost-effective on behalf of the American taxpayer. E-
government provides a platform to establish cross-agency 
collaboration and a rapid departure from a stovepipe approach 
to government operations to an approach that facilitates 
coordination, collaboration, communication, and cooperation.
    The E-Government Act of 2002, designed and advanced by 
Chairman Tom Davis, set forth a series of 24 initial e-
government projects and established the Office of Management 
and Budget as the lead agency responsible for implementation 
and oversight of those initiatives. Today, the subcommittee 
will continue to exercise its oversight responsibility by 
examining the progress made on the initial 24 ``Quicksilver'' 
projects, including the impediments to progress and any lessons 
learned during the development and implementation of these 
initiatives. Additionally, we will take a look at the next 
steps; i.e., the current plans for the next series of lines of 
business initiatives that will potentially produce further 
savings for the American taxpayer. I believe today's hearing 
will be an opportunity to celebrate success and much progress 
despite unexpected bumps in the road on some projects and a 
number of continuing obstacles. As we have learned in previous 
hearings, many of the impediments are cultural and personnel-
based rather than being attributable to the technology itself 
or available resources.
    I am optimistic about the potential savings that can be 
achieved by the full implementation of the initial set of 
projects, and am eager to hear more today about the anticipated 
savings to be derived by the next set of initiatives. In fact, 
I am so optimistic that this subcommittee has accepted a 
challenge of identifying significant budget savings for fiscal 
year 2005 through the portfolio of subject areas that reside 
within our jurisdiction, including most definitely e-
government.
    Federal Government expenditures on information technology 
products and services will approach $60 billion in fiscal year 
2005, making the Federal Government the largest IT purchaser in 
the world. My home State of Florida, the fourth largest State 
in the Union, has a total State budget of $56 billion this 
year, less than what the Federal Government spends just on IT. 
Thanks in large part to the outstanding efforts by OMB and the 
General Accounting Office in particular, great strides have 
been made to improve productivity and results from IT 
investments. But for too long, and even continuing today, 
individual agencies have pursued their own IT agendas that 
focus solely on mission rather than emanating from a commitment 
to customer service or sound business processes.
    As a first step to a meaningful coordination of IT 
expenditures governmentwide, Congress passed the Clinger-Cohen 
Act of 1996, which included the Information Technology 
Management Reform Act and the Federal Acquisition Reform Act. 
This legislation sets forth requirements for Federal Government 
IT investment management decisionmaking and corresponding 
responsibility. It requires agencies to fundamentally link IT 
investments to agency strategic planning, including the linkage 
to a Federal enterprise architecture. Clinger-Cohen also 
requires that OMB submit a report annually to Congress on the 
results of Federal IT spending and net program performance 
benefits achieved. This information was included as part of the 
fiscal year 2005 budget submission sent to Congress in early 
February.
    The E-Government Act of 2002 took the next step to improve 
IT investment results requiring enhanced and more user-friendly 
access to Government information and the delivery of 
information and services to citizens, business partners, 
employees, and other agencies and entities. The E-Government 
Act also requires OMB to provide a report to Congress on the 
status of e-government. Rather than simply identify and report 
on IT investments, the act forces a cultural change from 
consolidating IT investments to encouraging performance-based, 
citizen-centric, cross-agency planning.
    Today we have assembled a distinguished panel of witnesses 
to provide the subcommittee with insight on a number of 
specific issues: A description of the progress on the initial 
24 ``Quicksilver'' projects--lessons learned and challenges 
that we still face on initiatives such as Recruitment One-Stop, 
e-Travel, e-Grants, e-Rulemaking, e-Payroll, and e-
Authentication. The estimated cost-savings that will be derived 
in fiscal year 2005 as a result of these initiatives.
    The next steps in the subsequent five ``Lines of Business'' 
initiatives. How does the e-government strategy integrate with 
the development and implementation of a Federal Enterprise 
Architecture? How is OMB utilizing the Business Reference Model 
to identify redundant IT investments? How does the e-government 
strategy influence the agency investment decisionmaking as it 
relates to information security? How does the progress or lack 
there of in compliance with the requirements of FISMA affect an 
agency's e-government scorecard for the President's management 
agenda? How has the funding from Congress affected the progress 
of these e-government issues? How will tools such as SmartBuy 
provide OMB with even greater opportunity to achieve the goals 
and objectives of the e-government initiative?
    I look forward to the expert testimony our panel of leaders 
in various Federal agencies will provide today, as well as the 
opportunity to demonstrate the tremendous progress that has 
been made thus far with these initiatives, while acknowledging 
the magnitude of the challenge that lies ahead.
    Today's hearing can be viewed live via Web cast on 
Reform.House.Gov and clicking on the link under ``Live 
Committee Broadcasts.''
    [The prepared statement of Hon. Adam H. Putnam follows:]

    [GRAPHIC] [TIFF OMITTED] T5780.001
    
    [GRAPHIC] [TIFF OMITTED] T5780.002
    
    [GRAPHIC] [TIFF OMITTED] T5780.003
    
    Mr. Putnam. It is a pleasure to be joined by the ranking 
member of the subcommittee, the gentleman from Missouri, Mr. 
Clay. You are recognized for any opening remarks that you may 
wish to make.
    Mr. Clay. Thank you, Mr. Chairman, and also thank you for 
calling for this hearing of the subcommittee today. I am 
hopeful that today's testimony will prove beneficial in our 
efforts to make the Federal Government a more efficient and 
accessible institution.
    As I have stated during previous hearings on e-government 
related issues, my home State of Missouri is home to both the 
National Personnel Records Center as well as the Presidential 
Library of Harry S. Truman. As part of the National Archives 
and Records Administration, both the NPRC and the Truman 
Library represent the finest of institutions that a free 
society can have--serving as integral sources of information 
for not just government employees, teachers, students, or 
researchers, but citizens from all walks of life.
    Today's hearing is about making our government operate like 
the Truman Library. We should have an open government where 
each agency devotes its energy to making it easier for citizens 
to access government information, in a minimally restrictive 
and convenient manner. But that is not easily accomplished, 
particularly when attempting to get disparate agencies to work 
in concert with each other.
    In many respects, the goals associated with the e-
government are representative of the kind of government we 
deserve--transparent, accessible, and reliable. The first 
annual OMB report to Congress on the implementation and 
progress of the e-government initiatives, however, reminds us 
that such transparency and citizen accessibility is still a 
ways off. While I am encouraged by OMB's strategy for meeting 
their ambitious goals, I remain concerned that the agency 
community is failing to make adequate progress in meeting these 
goals. As of December 2003, only 2 of 26 agencies met all of 
the e-government standards for success as prescribed by OMB. 
Although I realize that progress continues to be reported at 19 
additional agencies, I am all too aware of lax oversight and 
follow through in other government related IT pursuits, such as 
computer security and performance management. Further, I am 
also aware that budget deficits can prove detrimental to the 
implementation and oversight of the 25 initiative agenda before 
us today.
    I would like to thank our witnesses for appearing before 
our subcommittee today and look forward to hearing their 
testimony. Mr. Chairman, I ask unanimous consent that my full 
statement be included in the record. Thank you.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T5780.004
    
    [GRAPHIC] [TIFF OMITTED] T5780.005
    
    [GRAPHIC] [TIFF OMITTED] T5780.006
    
    Mr. Putnam. Without objection.
    Having no further opening remarks, we will move directly to 
the testimony. I would ask that our panel of witnesses please 
rise, and anyone accompanying you who will provide you 
information in response to a query by this subcommittee please 
rise as well for the administration of the oath.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that all of the witnesses 
responded in the affirmative, including the last three who were 
a little bit late getting up. [Laughter.]
    Our first witness is Karen Evans. Ms. Evans is a frequent 
guest of the subcommittee, and we are delighted to have her 
back with us today. She was appointed by President Bush to be 
Administrator of the Office of Electronic Government and 
Information Technology at the Office of Management and Budget. 
Prior to joining OMB, Ms. Evans was Chief Information Officer 
at the Department of Energy and served as vice chairman of the 
CIO Council, which is the principal forum for agency CIOs to 
develop IT recommendations. She previously served at the 
Department of Justice as Assistant and Division Director for 
Information System Management. We are delighted to have you. 
You are recognized for 5 minutes. You understand the light 
system. We would ask everyone, because this is a large panel, 
to respect the lighting system. You will be given 5 minutes. 
Your written statement will be included in its entirety in the 
record, but we ask you to summarize your verbal comments. Thank 
you. Ms. Evans, you are recognized.

 STATEMENTS OF KAREN S. EVANS, ADMINISTRATOR, E-GOVERNMENT AND 
INFORMATION TECHNOLOGY, OFFICE OF MANAGEMENT AND BUDGET; LINDA 
    KOONTZ, DIRECTOR, INFORMATION MANAGEMENT, U.S. GENERAL 
  ACCOUNTING OFFICE; MARTIN WAGNER, ASSOCIATE ADMINISTRATOR, 
    OFFICE OF GOVERNMENT-WIDE POLICY, U.S. GENERAL SERVICES 
  ADMINISTRATION; M.J. JAMESON, ASSOCIATE ADMINISTRATOR (USA 
 SERVICES), OFFICE OF CITIZEN SERVICES AND COMMUNICATION, U.S. 
  GENERAL SERVICES ADMINISTRATION; NORMAN ENGER, DIRECTOR, E-
  GOVERNMENT (E-PAYROLL), OFFICE OF PERSONNEL MANAGEMENT; KIM 
 NELSON, CHIEF INFORMATION OFFICER (E-RULEMAKING INITIATIVE), 
   ENVIRONMENTAL PROTECTION AGENCY; AND GEORGE STRAWN, CHIEF 
    INFORMATION OFFICER (E-GRANTS), DIVISION OF GRANTS AND 
            AGREEMENTS, NATIONAL SCIENCE FOUNDATION

    Ms. Evans. Thank you, Mr. Chairman. Thank you for inviting 
me to speak to you today about the significant progress being 
made by the Federal Government to implement the 24 Presidential 
E-Government Initiatives and the recent launch of the two new 
task forces to examine human resources management and grants 
management in addition to the task forces underway in the areas 
of Federal health architecture, financial management, and case 
management systems for law enforcement, investigation, and 
litigation processes.
    Nearly 3 years ago, President Bush outlined his vision for 
expanding the use of e-government in the President's management 
agenda. His vision applies the principles of e-government to 
better serve our fellow citizens and to achieve greater results 
through refined business practices and more efficient 
management of information technology resources. Since the 
release of the President's management agenda, the OMB and our 
agency counterparts have worked diligently together to achieve 
these goals.
    Work has been done on multiple fronts. Not only did OMB and 
the agencies work to identify 24 Presidential initiatives in 
which to partner and provide shared solutions, but all agencies 
also initiated their own unique e-government projects to 
compliment the Presidential initiatives. Furthermore, in 
concert with State, local, and tribal officials, we have worked 
in partnership to achieve uniform levels of service at all 
levels within the government.
    The 24 initiatives are divided into four portfolios based 
on the type of user group the initiative services--government 
to citizen, government to business, government to government, 
and internal efficiency and effectiveness. In addition, the e-
Authentication initiative supports the other 24 in providing 
technology, policy, and implementation activities to allow for 
a more uniform application of identity management across 
government, providing choice to citizens and to Federal 
agencies. Each of these portfolios has initiatives that make a 
significant impact on their respective communities of interest.
    The initiatives, led by the agencies with guidance and 
assistance from OMB, have confronted common obstacles 
previously experienced in other transformation efforts. These 
include procurement, acquisition, regulatory, and cultural, and 
budgetary issues. None of these obstacles were unexpected. 
Because e-government is not the work of managing existing 
processes and investments, but rather working to transform old 
practices into new solutions, the challenge to deliver greater 
results to the citizen requires sustained management. This is 
hard work and our partner agencies leading these initiatives 
are focused and tireless in their efforts to deliver results to 
their fellow citizens. I commend them for their efforts.
    Concurrent with the work of the e-government initiatives, 
OMB launched the Federal Enterprise Architecture in February 
2002. The FEA is a business and performance-based framework 
designed to facilitate governmentwide information sharing, 
collaborative IT solutions, improved customer service, and 
process system integration resulting in faster, better, and 
more cost-effective service to the American people. Applied in 
the fiscal year 2004 and 2005 budget processes, the FEA is 
becoming recognized as a viable framework to analyze agency IT 
investments, thereby enabling the government to wisely target 
inter- and intra-agency collaboration efforts that will 
streamline the government's business processes.
    Throughout the past 2 years, OMB has analyzed information 
technology investments across several lines of business using 
the FEA. Use of the FEA better quantifies the savings and 
service improvements that could result from integration and 
consolidation projects. This analysis resulted in the launch of 
two new task forces last Thursday and a reflection of the 
continuing efforts of the task forces underway to determine 
business-driven common solutions in all the following areas: 
financial management, human resources, grants management, 
Federal health architecture, and case management systems.
    From now until early September, these agency-led task 
forces will define a common solution, and develop a target 
architecture and business case for the respective line of 
business. This work will be inclusive and deliberate, and will 
include a public Request for Information process.
    The Presidential e-Government initiatives are delivering 
measurable results to citizens. The administration will 
continue to work collaboratively across the agencies and with 
Congress on e-Government and information technologies. I look 
forward to working with you on these matters. I would be happy 
to take any questions.
    [The prepared statement of Ms. Evans follows:]

    [GRAPHIC] [TIFF OMITTED] T5780.007
    
    [GRAPHIC] [TIFF OMITTED] T5780.008
    
    [GRAPHIC] [TIFF OMITTED] T5780.009
    
    [GRAPHIC] [TIFF OMITTED] T5780.010
    
    [GRAPHIC] [TIFF OMITTED] T5780.011
    
    Mr. Putnam. Thank you, Ms. Evans.
    Our next witness is Linda Koontz. Linda Koontz is Director 
of Information Management Issues for the General Accounting 
Office. Ms. Koontz is responsible for issues concerning the 
collection, use, and dissemination of government information in 
an era of rapidly changing technology as well as e-government 
issues. Recently, she has been heavily involved in directing 
studies of interest to this subcommittee, including e-
government, privacy, electronic records management, and 
governmentwide information dissemination. You are recognized 
for 5 minutes. Welcome to the subcommittee.
    Ms. Koontz. Thank you, Mr. Chairman. I appreciate the 
opportunity to participate in the subcommittee's hearing on 
electronic government progress. Generally speaking, e-
government refers to the use of information technology, 
particularly Web-based Internet applications, to enhance the 
access to and delivery of government information and service to 
citizens, to business partners, to employees, and among 
agencies at all levels of government.
    As requested, in my remarks today, I will discuss the 
progress of the 25 OMB-sponsored e-government initiatives in 
meeting their initial objectives. In the initiatives' first 
formal workplans, submitted to OMB in May 2002, a total of 91 
objectives were laid out. While these objectives vary widely--
from simple, narrowly defined tasks, to broad long-term 
transformational goals--they serve as a useful benchmark across 
all of the initiatives for measuring progress over the last 2 
years.
    Overall, we found that mixed progress has been made in 
achieving these objectives. To date, 33 have been fully or 
substantially achieved; 38 have been partially achieved; and 
for 17, no significant progress has been made toward these 
objectives. In addition, three of the objectives no longer 
apply because they have been found to be impractical or 
inappropriate. For two of the initiatives--Grants.gov and IRS 
Free File--all original objectives have been achieved, and for 
an additional five, the majority of the objectives have been 
achieved. For the other 18 initiatives, most of their 
objectives are either partially met or not significantly met.
    An example of an initiative that has made excellent 
progress in achieving the original objectives is Grants.gov, 
which established a Web portal that, as of February 2004, 
allowed prospective grants applicants to find and apply for a 
total of 835 grant opportunities at 29 grantmaking agencies. 
Project SAFECOM, on the other hand, has made very limited 
progress in addressing its original objectives, which all 
relate to achieving communications interoperability among 
entities at various levels of government. Given that OMB's 
stated criteria in choosing these initiatives included their 
likelihood of deployment in 18 to 24 months, the substantial 
number of objectives that are still unmet or only partially met 
indicates that making progress on these initiatives is more 
challenging than OMB may have originally anticipated.
    The extent to which the 25 initiatives have met their 
original objectives can be linked to a common set of challenges 
that they all face including, focusing on achievable objectives 
that meet customer needs, maintaining management stability 
through executive commitment, collaborating effectively with 
partner agencies and stakeholders, driving transformational 
changes in business processes, and implementing effective 
funding strategies. Initiatives that have overcome these 
challenges have generally met with success in achieving their 
objectives, whereas initiatives that have had problems dealing 
with these challenges have made less progress.
    GovBenefits is a good example of an initiative that has 
successfully focused on an achievable near-term objective but 
also continues to work on a more challenging transformational 
task. Specifically, a Web site, GovBenefits.gov, was set up 
that currently provides potential applicants with information 
about over 500 benefit programs at 22 agencies. However, the 
project has not yet addressed the more challenging task of 
streamlining the process of applying for these benefits. An 
approach has been mapped out for tackling this issue but no 
milestone has been set for bringing a standardized application 
process on line.
    In summary, Mr. Chairman, e-government offers many 
opportunities to better serve the public, make government more 
efficient and effective, and reduce costs. Some of the 25 
initiatives have made substantial progress and are already 
producing valuable benefits. Further, important lessons in the 
form of the challenges that I have outlined today have been 
learned from these initial efforts. We believe that priority 
should be given now to ensuring that the agencies managing 
these initiatives assess their progress in the context of these 
challenges and develop strategies to address them. In addition, 
we continue to believe that careful oversight on the part of 
OMB as well as the Congress is crucial to realizing the full 
potential of e-government.
    That concludes my statement. I would be happy to answer 
questions at the appropriate time.
    [The prepared statement of Ms. Koontz follows:]

    [GRAPHIC] [TIFF OMITTED] T5780.012
    
    [GRAPHIC] [TIFF OMITTED] T5780.013
    
    [GRAPHIC] [TIFF OMITTED] T5780.014
    
    [GRAPHIC] [TIFF OMITTED] T5780.015
    
    [GRAPHIC] [TIFF OMITTED] T5780.016
    
    [GRAPHIC] [TIFF OMITTED] T5780.017
    
    [GRAPHIC] [TIFF OMITTED] T5780.018
    
    [GRAPHIC] [TIFF OMITTED] T5780.019
    
    [GRAPHIC] [TIFF OMITTED] T5780.020
    
    [GRAPHIC] [TIFF OMITTED] T5780.021
    
    [GRAPHIC] [TIFF OMITTED] T5780.022
    
    [GRAPHIC] [TIFF OMITTED] T5780.023
    
    [GRAPHIC] [TIFF OMITTED] T5780.024
    
    [GRAPHIC] [TIFF OMITTED] T5780.025
    
    [GRAPHIC] [TIFF OMITTED] T5780.026
    
    [GRAPHIC] [TIFF OMITTED] T5780.027
    
    [GRAPHIC] [TIFF OMITTED] T5780.028
    
    [GRAPHIC] [TIFF OMITTED] T5780.029
    
    [GRAPHIC] [TIFF OMITTED] T5780.030
    
    [GRAPHIC] [TIFF OMITTED] T5780.031
    
    [GRAPHIC] [TIFF OMITTED] T5780.032
    
    [GRAPHIC] [TIFF OMITTED] T5780.033
    
    [GRAPHIC] [TIFF OMITTED] T5780.034
    
    [GRAPHIC] [TIFF OMITTED] T5780.035
    
    [GRAPHIC] [TIFF OMITTED] T5780.036
    
    [GRAPHIC] [TIFF OMITTED] T5780.037
    
    [GRAPHIC] [TIFF OMITTED] T5780.038
    
    [GRAPHIC] [TIFF OMITTED] T5780.039
    
    [GRAPHIC] [TIFF OMITTED] T5780.040
    
    [GRAPHIC] [TIFF OMITTED] T5780.041
    
    [GRAPHIC] [TIFF OMITTED] T5780.042
    
    [GRAPHIC] [TIFF OMITTED] T5780.043
    
    [GRAPHIC] [TIFF OMITTED] T5780.044
    
    [GRAPHIC] [TIFF OMITTED] T5780.045
    
    [GRAPHIC] [TIFF OMITTED] T5780.046
    
    [GRAPHIC] [TIFF OMITTED] T5780.047
    
    [GRAPHIC] [TIFF OMITTED] T5780.048
    
    [GRAPHIC] [TIFF OMITTED] T5780.049
    
    [GRAPHIC] [TIFF OMITTED] T5780.050
    
    [GRAPHIC] [TIFF OMITTED] T5780.051
    
    [GRAPHIC] [TIFF OMITTED] T5780.052
    
    [GRAPHIC] [TIFF OMITTED] T5780.053
    
    [GRAPHIC] [TIFF OMITTED] T5780.054
    
    [GRAPHIC] [TIFF OMITTED] T5780.055
    
    [GRAPHIC] [TIFF OMITTED] T5780.056
    
    [GRAPHIC] [TIFF OMITTED] T5780.057
    
    [GRAPHIC] [TIFF OMITTED] T5780.058
    
    [GRAPHIC] [TIFF OMITTED] T5780.059
    
    [GRAPHIC] [TIFF OMITTED] T5780.060
    
    [GRAPHIC] [TIFF OMITTED] T5780.061
    
    [GRAPHIC] [TIFF OMITTED] T5780.062
    
    [GRAPHIC] [TIFF OMITTED] T5780.063
    
    [GRAPHIC] [TIFF OMITTED] T5780.064
    
    [GRAPHIC] [TIFF OMITTED] T5780.065
    
    [GRAPHIC] [TIFF OMITTED] T5780.066
    
    [GRAPHIC] [TIFF OMITTED] T5780.067
    
    [GRAPHIC] [TIFF OMITTED] T5780.068
    
    [GRAPHIC] [TIFF OMITTED] T5780.069
    
    [GRAPHIC] [TIFF OMITTED] T5780.070
    
    [GRAPHIC] [TIFF OMITTED] T5780.071
    
    [GRAPHIC] [TIFF OMITTED] T5780.072
    
    [GRAPHIC] [TIFF OMITTED] T5780.073
    
    [GRAPHIC] [TIFF OMITTED] T5780.074
    
    [GRAPHIC] [TIFF OMITTED] T5780.075
    
    [GRAPHIC] [TIFF OMITTED] T5780.076
    
    [GRAPHIC] [TIFF OMITTED] T5780.077
    
    [GRAPHIC] [TIFF OMITTED] T5780.078
    
    [GRAPHIC] [TIFF OMITTED] T5780.079
    
    [GRAPHIC] [TIFF OMITTED] T5780.080
    
    [GRAPHIC] [TIFF OMITTED] T5780.081
    
    Mr. Putnam. Thank you very much.
    Our next witness is Mr. Martin Wagner. Mr. Wagner is the 
Associate Administrator for Government-wide Policy at GSA. He 
develops and evaluates policies for the Federal Government's 
management and disposal of products and services, internal 
management processes such as travel, the use of information 
technology, and electronic commerce. He has served in this 
capacity since 1995. He co-chaired the Federal Government's 
first interagency electronic commerce effort, and has been a 
senior manager in information technology and telecommunications 
at the GSA, directed telecommunications at the Treasury 
Department, evaluated telecommunications issues at OMB, and 
evaluated the economic impact of regulations at EPA. That was 
quite a job. [Laughter.]
    Mr. Wagner. Yes.
    Mr. Putnam. I take it you did not finish before you moved 
on to other things. He has been a consultant on economic and 
technological issues for the space program, and has 
undergraduate and graduate degrees in economics and engineering 
from Princeton. Welcome to the subcommittee. You are recognized 
for 5 minutes. We look forward to your testimony.
    Mr. Wagner. Thank you, Mr. Chairman. My written remarks 
cover the general scope of the GSA efforts. So rather than 
summarize those in detail, I wanted to pull out one case 
example for you, e-Travel, to illustrate the types of things we 
have been working through.
    If I look at travel in the status quo when we first got 
involved with it, it was pretty much done by agencies' local 
option, at office or bureau, occasionally the department level, 
business rules done locally, few economies of scale, some 
innovators, for example in Transportation and the Defense 
Department, but basically travel, even though it is about $8 
billion a year, was viewed as an adjunct function and not 
looked at as a common business process across the whole Federal 
Government.
    When we got engaged in e-Travel, not only did we look 
across the government, we looked to the best practices in the 
private sector and put together a strategy that tends to 
emulate the best practices they do. I would also say we did 
that collaboratively with agencies. Rather than simply going 
out and getting the right answer, you have to work with the 
practitioners. To net it out, effective travel management in 
businesses tends to embrace standardized, centralized service 
delivery, standard business rules that are followed and you do 
manage exceptions from them, there is online booking processing 
and fulfillment, there are clear demarcations between travel 
and other financial systems, it is managed by a small cadre of 
professionals, many of them under contract, and then there is 
active analysis of what businesses actually spend their money 
on. We then built that into the e-Travel strategy, awarded 
three contracts which are now in the process of rolling out.
    Now we have to actually make it work. It is quite clear 
that governance is going to be critical. For example, agencies 
may want to specialize for reasons that do not make economic 
sense. We are trying to build out a standardized system. The 
companies certainly have an interest in doing special, adding 
unneeded features on occasion. And how do we manage that while 
at the same time recognizing that in some cases agencies do 
have unique problems. That is what we are working through. I 
think we have made good progress to date. I certainly would be 
happy to talk to any of the other GSA initiatives. But that 
gives you a sense of what we are working on. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Wagner follows:]

    [GRAPHIC] [TIFF OMITTED] T5780.082
    
    [GRAPHIC] [TIFF OMITTED] T5780.083
    
    [GRAPHIC] [TIFF OMITTED] T5780.084
    
    [GRAPHIC] [TIFF OMITTED] T5780.085
    
    [GRAPHIC] [TIFF OMITTED] T5780.086
    
    Mr. Putnam. Thank you, sir.
    Our next witness is M.J. Jameson. Ms. Jameson was named the 
Associate Administrator of Communications on December 10, 2001. 
Her role as principal communications executive for the agency, 
Ms. Jameson serves as GSA's primary spokeswoman and will advise 
the Administrator on communications and all matters of general 
public interest. In a career spanning 20 years, Ms. Jameson has 
held senior level communications positions, including senior 
vice president with the public relations firm Burris and 
Marsteller, vice president of communications at American Forest 
and Paper Association, special assistant to the U.S. Ambassador 
to France, and Director of Public Affairs and press secretary 
for the Department of Energy. Welcome to the subcommittee. You 
are recognized.
    Ms. Jameson. Thank you, Mr. Chairman, and members of the 
subcommittee. Thank you for inviting me to testify at today's 
hearing on e-government to talk about USA Services. First, I 
want to express my appreciation for the widespread support that 
we have received for USA Services which has made it a success. 
This begins with the Bush administration which had the vision 
to design a management agenda with an e-government element that 
is truly bringing a fundamental cultural change as to how 
citizens interact with their government. OMB has been very 
supportive, and I want to mention that Karen Evans and Clay 
Johnson are making a real difference. Our Administrator Steve 
Perry has been involved in our effort every step of the way 
personally. And critical to our success as well has been 
support from Chairman Davis as well as you, Mr. Chairman, and 
this subcommittee. All of us on the front lines in e-government 
know how supportive you are and we appreciate it.
    USA Services presents citizens with a single ``front door'' 
to government, allowing them to receive accurate, timely, and 
consistent answers and information. As an example of the impact 
USA Services is having, we are expecting 225 million citizen 
contacts this year. That includes e-mails to FirstGov, page 
views to FirstGov, or calling our 1-800-FED-INFO line. It also 
includes the more traditional way that some citizens prefer to 
receive information, and that is in hard copy from our 
distribution center in Pueblo, CO. In fact, Mr. Chairman, you 
may be interested to know that we just received an e-mail from 
someone from Lake Alfred, FL, who is interested in knowing who 
their Congressman was so they could be in touch with them. 
[Laughter.]
    USA Services is also looking after citizens' interest by 
helping our fellow agencies. We do this in two ways. First, we 
all know that citizens do not always know who to call, what 
agency to e-mail or call with their questions or problems. As 
the government is so complex, this is a problem for us as well. 
When that happens, USA Services can step in. We can take care 
of the call or the e-mail. We can provide the information, or, 
if it is a complex question, we can send the citizen directly 
to the right agency. This service is free to the agencies in 
the government, and we would like all of our Federal colleagues 
to send their misdirected calls and e-mails to us.
    Second, when agencies want an even higher level of support, 
USA Services can respond to citizens' inquiries with 
information that has been cleared by agency experts. This 
reimbursable service saves agencies time and money and frees 
them to concentrate on their core missions.
    That is all of my oral testimony. I would be happy to take 
any questions. Thank you.
    [The prepared statement of Ms. Jameson follows:]

    [GRAPHIC] [TIFF OMITTED] T5780.087
    
    [GRAPHIC] [TIFF OMITTED] T5780.088
    
    [GRAPHIC] [TIFF OMITTED] T5780.089
    
    [GRAPHIC] [TIFF OMITTED] T5780.090
    
    [GRAPHIC] [TIFF OMITTED] T5780.091
    
    [GRAPHIC] [TIFF OMITTED] T5780.092
    
    [GRAPHIC] [TIFF OMITTED] T5780.093
    
    Mr. Putnam. Thank you, Ms. Jameson. I would note for the 
record that I have joined Chairman Davis in signing a ``Dear 
Colleague'' letter asking Members of Congress to promote USA 
Services and FirstGov.gov to their constituents, and, 
hopefully, including those constituents in Lake Alfred.
    Ms. Jameson. Thank you very much.
    Mr. Putnam. Where are you from?
    Ms. Jameson. I am from South Carolina.
    Mr. Putnam. Well I am glad that you could bring that sweet 
southern drawl to the stuffy salons in your work as assistant 
to the Ambassador to France. I am sure it did them a lot of 
good.
    Ms. Jameson. Thank you, sir.
    Mr. Putnam. Our next witness is Norman Enger. Mr. Enger has 
extensive experience in the information systems industry and 
managed organizations responsible for delivering quality 
information technology services and solutions to commercial and 
government clients. Most recently, he was the vice president of 
Computer Associates International, the world's fourth largest 
software firm, where he was responsible for developing business 
strategies and managing the delivery of professional services 
and products to major commercial and Federal e-business 
clients. You are recognized for 5 minutes. Welcome to the 
subcommittee.
    Mr. Enger. Thank you, Mr. Chairman. I would like to request 
that my full testimony be entered into the record. I will 
summarize my remarks here.
    My name is Norm Enger. I serve OPM Director Kay Coles James 
as a direct report as OPM e-Government Program Director. It has 
been a privilege and a pleasure to work with OPM Director Kay 
Cole James. Her leadership has let the Office of Personnel 
Management become a leader in e-government. OPM is the second 
agency to achieve a green status in e-government.
    The five OPM e-government initiatives are using information 
technology to provide enterprise human capital solutions and 
transform government human resource systems. OPM is managing 
partner to 5 of the original 25 Presidential e-government 
Initiatives.
    E-Gov, in total, provides a framework and methodologies to 
consolidate redundant processes and resources into a modern, 
trusted Federal human capital enterprise architecture. Our goal 
at OPM is to work with OMB and agencies to deliver an e-
government that supports the modernization of human resource 
systems and the improvement of human capital activities across 
the Federal Government. We have an integrated vision of our 
five initiatives that frames the civilian employee lifecycle 
from recruitment to retirement. Our initiatives enable the 
Federal Government to better lead, manage, and drive 
enterprise-wide solutions for human resource management. They 
support the recruitment, selection, and effective management of 
human capital resources across government.
    I would like to provide more detail on the two OPM 
initiatives of interest to this subcommittee: Recruitment One-
Stop and e-Payroll.
    The goal of the Recruitment One-Stop initiative is to 
improve the process of locating and applying for Federal jobs. 
We are delivering to both job seekers and Federal agency 
recruiters a wealth of exciting new features and capabilities. 
Based upon current use, USAJOBS will log more than 75 million 
visits by Americans this year, over one-half million resumes 
will be created, and more than 350,000 vacancies will be 
advertised.
    OPM implemented in August 2003 a completely new, state-of-
the-art USAJOBS technology. With the new system, job seekers 
immediately received a number of benefits, including an 
improved user interface built on industry best practices for 
ease of use and navigation, a powerful and flexible job search 
engine capable of matching skills and interests against the 
full text of job announcements, and enhanced tools for building 
and managing resumes. For human resources specialists we 
implemented improved tools to managing job postings, candidate 
communications, and candidate sourcing.
    Recently, USAJOBS rolled out a new display for job 
announcements that represents a transformation in the way that 
vacancy information is presented. The newly formatted 
announcement delivers vacancy information in an attractive and 
easy to read one-page format that gives job seekers all the 
information they need about a vacancy. As this change takes 
hold, we expect our customer satisfaction numbers to further 
increase.
    Formal testing of job seekers showed us that the way we 
displayed our job opportunities needed substantial improvement. 
By early summer, we will implement additional enhancements that 
will streamline the application process and give job seekers 
real-time access to information regarding the status of job 
applications they have filed.
    OPM Director Kay Coles James is committed to improving the 
Federal hiring process. The Recruitment one-Stop Initiative and 
the new USAJOBS Web site are key components in making this goal 
a reality. This initiative is reducing the complexity in 
Federal hiring and making it easier to hire qualified 
applicants. It will decrease the cost and time associated with 
filling jobs.
    The e-Payroll initiative advances the government by 
creating greater efficiencies in Federal payroll processing. We 
are reducing 26 Federal payroll systems to 2 partnerships that 
will provide payroll processing services. The current 26 
systems that pay 1.8 million civilian employees represent a 
variety of paper and electronic systems. Records are not easily 
shared among agencies as Federal employees change jobs in the 
Federal system, and records are manually retired upon 
employees' retirement or resignation. We want e-Payroll to be a 
simple, easy to use, cost effective, standardized, integrated 
human resource and payroll service to support the mission and 
employees of the Federal Government.
    These dynamic innovations we are accomplishing through OPM 
e-government are solid evidence that e-government is 
transforming the way our government operates today. Thank you.
    [The prepared statement of Mr. Enger follows:]

    [GRAPHIC] [TIFF OMITTED] T5780.094
    
    [GRAPHIC] [TIFF OMITTED] T5780.095
    
    [GRAPHIC] [TIFF OMITTED] T5780.096
    
    [GRAPHIC] [TIFF OMITTED] T5780.097
    
    [GRAPHIC] [TIFF OMITTED] T5780.098
    
    [GRAPHIC] [TIFF OMITTED] T5780.099
    
    [GRAPHIC] [TIFF OMITTED] T5780.100
    
    [GRAPHIC] [TIFF OMITTED] T5780.101
    
    Mr. Putnam. Thank you, Mr. Enger.
    Our next witness is Ms. Kim Nelson. In November 2001, Ms. 
Kimberly Nelson was sworn in to the position of Assistant 
Administrator for Environmental Information and CIO of the 
Environmental Protection Agency. Prior to her joining EPA, Ms. 
Nelson served the Commonwealth of Pennsylvania for 22 years. 
During her career, she worked in the Senate of Pennsylvania, 
the Public Utility Commission, and the Departments of Aging and 
Environmental Protection. For the last 14 years, Ms. Nelson 
held a number of positions in the Pennsylvania Department of 
Environmental Protection. She was the first director of the 
program integration and effectiveness office, the first 
executive to hold the position of CIO, and most recently served 
as executive deputy secretary, the second highest position in 
the department. She was primarily responsible for managing 
department-wide projects with the goal of improving processes 
and integrating programs and functions. Ms. Nelson was 
recognized for outstanding service on three occasions during 
her career with the Pennsylvania Department of Environmental 
Protection. You are recognized. Welcome to the subcommittee.
    Ms. Nelson. Thank you, Chairman Putnam. It is a pleasure 
for me to be here today representing not just EPA, but, in 
particular, the interagency work group doing e-Rulemaking.
    At EPA, we certainly recognize that these information 
technology advances can offer substantial opportunities to 
improve the way we do business. EPA participates in 14 of the 
25 e-government initiatives, including all 6 that are 
represented here today. So it is an important part of our 
mission.
    In serving as the Chair for the e-Rulemaking Initiative, we 
recognize how important the role citizens play in the e-
Rulemaking process and are working hard to incorporate that as 
we roll out that initiative. As you know, the initiative is 
comprised of three different modules that will improve agency 
processes, enhance public participation, and yield more timely 
regulatory decisions.
    The first module is the module that is already up and 
running, and it is the regulatory clearinghouse that we call 
Regulations.gov. It was officially launched in January 2003, 
and it serves as the one-stop Web site where citizens can 
search, they can find, they can view, and they can comment on 
all ongoing rulemakings published by Federal agencies today. 
Regulations.gov is the direct result of a collaborative effort 
of five different Federal agencies. In just 3 months and for 
less than $300,000 the Regulations.gov site was designed, 
tested, and launched. Since its launch last year, the Web site 
has received more than 2.5 million hits, with an average of 
6,000 hits a day, and, perhaps more importantly, we have seen a 
tripling of the page downloads to about 15,000 per month.
    The second module is going to buildupon the first and it 
will establish the first full-featured Federal Docket 
Management System. It is currently in development today, and 
the Federal docket system, once it is up and running, will 
serve as the central repository for published rulemaking 
documents and all supporting materials, enabling the public to 
easily search, access, and comment on all publicly available 
regulatory materials. The team expects to complete the 
requirements-gathering for this particular phase of the project 
next month and begin to roll that out for testing in September.
    The third module, and perhaps the most aggressive, will 
create information technology tools that agencies can use to 
help rule writers actually change the way they do business. It 
will impact how they develop, how they review, and how they 
publish Federal regulations. While agency participation in that 
module, Module III, is voluntary, we are seeing a lot of 
interest in that and recently at a meeting had 13 Federal 
agencies show up to begin working on the requirements for that 
particular module.
    The success of the e-Rulemaking initiative to date is based 
on a number of factors. First, it is collaboration, and I would 
say that is first and foremost. Second, we have the involvement 
of the CIOs and the senior regulatory officials from 
participating agencies. Working through a recently created 
Executive Steering Committee, these individuals have been 
essential in helping to define the scope and the function of 
the Federal Docket Management System and most recently voted 
15-2 to endorse a centralize architecture for the system.
    We certainly have some challenges as we move forward, 
though. Through the collaboration, the e-Rulemaking teams made 
significant strides toward a more efficient, integrated, and 
publicly accessible approach to the regulatory process. The 
teams received a number of awards for its successes, including 
an Innovation Award from the National Association of 
Secretaries of State, a Federal Executive Leadership Council 
Award, and a Grace Hopper Government Technology Leadership 
Award.
    Nonetheless, we face a number of hurdles as we try to 
ensure that the initiative continues to be successful. First, 
creating a Federal Government-wide docket system for so many 
agencies will pose a significant organizational management 
challenge. In addition, organizational changes are going to be 
necessitated by the migration to one centralized rulemaking 
system which will undoubtedly present a whole new set of 
issues, some of which we anticipate, and some that I am sure 
will be a surprise.
    Finally, the effective communication is a key to our 
successful implementation of the cross-agency initiative. We 
know we need to do more. Over the coming months we will focus 
on increasing public awareness of Regulations.gov and driving 
new business to the site. We are also going to strengthen our 
communications efforts with the other Federal agencies to help 
preclude unanticipated problems and to work more closely with 
those as we try to roll out the system.
    In conclusion, let me say it is a real pleasure to be here 
to reiterate EPA's strong commitment to the collaborative 
leadership that we have on e-Rulemaking and to discuss any 
questions that you may have today. Thank you.
    [The prepared statement of Ms. Nelson follows:]

    [GRAPHIC] [TIFF OMITTED] T5780.102
    
    [GRAPHIC] [TIFF OMITTED] T5780.103
    
    [GRAPHIC] [TIFF OMITTED] T5780.104
    
    [GRAPHIC] [TIFF OMITTED] T5780.105
    
    [GRAPHIC] [TIFF OMITTED] T5780.106
    
    [GRAPHIC] [TIFF OMITTED] T5780.107
    
    Mr. Putnam. Thank you, Ms. Nelson.
    Our next witness is Dr. George Strawn. As the National 
Science Foundation's CIO, Dr. Strawn guides the agency in the 
development and design of innovative information technology, 
working to enable NSF staff and the international community of 
scientists, engineers, and educators to improve business 
practices and pursue new methods of scientific communication, 
collaboration, and decisionmaking. Since joining in 1991, Dr. 
Strawn has served NSF in numerous roles, including director of 
the computer and information science and engineering division 
of the advanced networking infrastructure and research, where 
he led NSF's efforts in the Presidential Next Generation 
Internet Initiative. Dr. Strawn currently serves as co-chair of 
both the Interagency Large-Scale Networking Working Group and 
the International Coordinating Committee for Intercontinental 
Research Networks. Welcome to the subcommittee. You are 
recognized for 5 minutes.
    Mr. Strawn. Thank you, Chairman Putnam. I am very pleased 
to be here. I thank you for inviting me to speak about NSF's 
participation in the e-Gov projects. I am particularly pleased 
to have this opportunity because the e-Gov initiatives have 
been enabled by the emergence of the Internet, for which the 
Federal Government provided the definitive research and 
development since the mid 1960's, first by the Department of 
Defense, then by NSF and other agencies. NSF supported the 
development of an Internet infrastructure for higher education 
and subsequently took the lead in commercializing and 
privatizing the Internet so it could become, over the last 10 
years, a global force to reshape many aspects of society, 
including the Federal Government.
    Mr. Putnam. Dr. Strawn, did you invent the Internet? 
[Laughter.]
    Mr. Strawn. Success has many fathers. As well as being a 
major provider of IT research support, NSF has worked hard to 
be a leader in the use of information technology. Our 
``FastLane'' system developed in the 1990's has enabled us to 
receive our research proposals over the Internet and we are now 
also performing many of our ``back-office'' proposal review and 
award-making activities electronically as well. I might mention 
that we have recently increased the number of proposals we 
receive by 50 percent and we have been able to handle that 
increase with our electronic system with no increase in 
personnel. Recently, we were gratified to receive the 
President's Quality Award for the Fastlane system, and we have 
been gratified to receive ``the green light'' in e-government 
from the administration and this year to receive an ``A-'' from 
this committee for our work under FISMA to secure the NSF 
information and IT resources.
    NSF, although we participate in many of the e-gov 
initiatives, I would like to highlight our participation in 
Grants.gov since that is our core line of business.
    NSF was a natural partner for the initiative, and we have 
been able to leverage our FastLane system to provide an 
experience base for the interagency Grants.gov efforts to 
buildupon. The vision of Grants.gov is to provide a simple, 
unified source to electronically find and apply for grant 
opportunities.
    Find establishes Grants.gov as the central governmentwide 
location allowing anyone to go to one site to identify all 
government-sponsored funding opportunities. And apply provides 
the capability to electronically submit a grant application 
through Grants.gov to the sponsoring agency.
    NSF currently posts all of our funding opportunities on the 
Grants.gov site and is working with Grants.gov to utilize the 
apply functions by the end of this fiscal year. In addition, we 
are working with the e-Authentication project and others to 
pilot a capability to authenticate grant applicants from a 
variety of trusted sources, including FastLane, thus reducing 
administrative burden on the grantee and the funding agencies.
    Also, NSF has been a leading agency in the effort to define 
a set of ``Research and Related data elements and associated 
forms.'' This data was delivered to Grants.gov last week and 
will be used across all research agencies to provide applicants 
with a standard set of data requirements for the application 
process.
    As Ms. Evans mentioned, last week OMB announced five new 
task forces focusing on government ``Lines of Business'' that 
further support the President's management agenda. NSF has been 
named a co-managing partner, with the Department of Education, 
on the Grants Management Task Force. This new interagency 
effort will reduce the cost of grants management and improve 
services to citizens by identifying potential business 
functions that can be shared across agencies.
    Through Grants.gov and the new interagency task force on 
grants management, the Federal Government is making significant 
progress in meeting the requirements of Public Law 106-107, and 
establishing an interagency process to streamline and simplify 
financial assistance procedures for non-Federal agencies. With 
the comprehensive range of Presidential E-Government 
initiatives, the Federal Enterprise Architecture, and other 
coordinated efforts, we are making good progress toward better 
serving our citizens while at the same time controlling costs. 
Our challenge is to continue to implement these important 
initiatives with a careful focus on Federal Enterprise 
integration so that we do not replace agency level stovepiped 
applications with governmentwide stovepiped ones.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Strawn follows:]

    [GRAPHIC] [TIFF OMITTED] T5780.108
    
    [GRAPHIC] [TIFF OMITTED] T5780.109
    
    [GRAPHIC] [TIFF OMITTED] T5780.110
    
    Mr. Putnam. Thank you very much. I want to thank all of you 
for your opening statements and I look forward to a good 
discussion as we get into the questions and answers.
    Let me begin with a fairly simple question. How many Web 
sites does the Government have that are official Federal 
Government Web sites?
    Ms. Jameson. That is a good question. We do not know the 
answer to that. We are in the process of trying to determine 
that number as well as the number of call centers. That is 
something several years to come, and we are looking at starting 
some work on that next year in exactly getting that number. But 
you can be sure the number is very large. I am sorry I do not 
have an exact number for you.
    Mr. Putnam. How hard would it be to figure it out? How many 
addresses end in ``.gov?'' That is a start, isn't it?
    Ms. Jameson. Yes. But everyday there are new ones that are 
created. So it is a moving target.
    Mr. Putnam. Is there a policy where somebody has to get 
permission to launch an official Web site?
    Ms. Evans. The answer is, yes. From a technical 
perspective, GSA manages the ``.gov'' domain for the Government 
as a whole. So there is guidance that has been previously 
issued that talks about how an agency goes about and gets a 
.gov domain registration. If you want to know the specifics 
about how that works, Marty would be glad to share it. But the 
way that the process works and the way that it has been set up 
is that if someone comes in and requests a new domain under the 
.gov domain, that if they are a subsidiary, what I would call a 
subsidiary, organization from a major department, that request 
is sent back to the department to the chief information officer 
for approval before approval is granted to give that person a 
.gov domain.
    Mr. Putnam. And who is eligible? State and local 
government, or at least State government is eligible for the 
.gov domain, are they not?
    Mr. Wagner. Yes. We expanded the policy about a year ago to 
make .gov available to State and local governments. And we 
would require a State government to be a bona fide 
representative of the State to get the domain but, in general, 
we would not get involved in those decisions. It is for the 
State to decide how many. We would give them a top level 
domain, like Florida.gov. I do not actually know if Florida did 
go that way. A lot of them have been under the ``.US'' domain.
    In general, for the number of Web pages, though, we can 
give you the number of domain names, I cannot give it to you 
right this second, but we certainly have a list of the .gov 
domains. Not all of those are active and we are looking at how 
to bring that somewhat more under control. That does not 
necessarily deal with the issue of how many Web pages there 
are, though, because we would issue what is called a top level 
domain, for example, DOE.gov., and under DOE.gov there could be 
any number of sub-level domains
and that would be up to DOE to make that determination.
    Mr. Putnam. I would like to know the numbers that you do 
have, if that is possible.
    Mr. Wagner. Certainly. We will submit that for the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5780.111
    
    Mr. Putnam. You decide though the top level number that 
they get, is that correct? So if you wanted to restrict or 
consolidate the number of government Web sites, would that be 
your call?
    Mr. Wagner. As a matter of process, yes. We would have a 
process that said if a CIO in an agency wanted to have a 
domain, we would make that request go through the CIO. As a 
practical matter, we do not have a real policy to deal with 
sort of generic names, like student.gov, senior.gov. We have 
tended to work that out informally. We would not on our own 
start telling an agency they cannot have a specific domain name 
if the CIO wanted it. However, as this grows, we will be 
working through the CIO council because it is really a broader 
question than simply something GSA deciding on.
    Mr. Putnam. So a site like students.gov, which is financial 
aid, applications for jobs in the Federal Government, it 
certainly could be almost limitless in scope if you throw in 
all the other things that a student might be interested in and 
might use students.gov as their first stop in doing homework or 
doing research or wanting to find out about whatever. So it 
would be voluntary to pull in, for example, 4-H from the 
Department of Agriculture, and somebody else from the Library 
of Congress to help with research, and somebody from DOE to get 
information on college scholarships, and someone else--I mean, 
that is all the work of the CIO council?
    Mr. Wagner. I think that would be the best place where we 
would tend to work those issues through. Students.gov was an 
interagency portal, seniors.gov, and there is a community, 
there are not that many players among the CIOs, so we have 
worked those things out. I think, in general, we are probably 
going to have to get more formal, but that is just my personal 
speculation.
    Mr. Putnam. Now, Ms. Nelson was referring to the 
Regulations.gov, the e-Rulemaking, and said there were 2.5 
million hits total, 6,000 a day on average, 15,000 downloaded 
documents on average per month. Those are outputs. So let's 
talk about outputs for a second. How many hits have the 25 e-
Gov initiatives generated and what has the growth pattern been 
since they were launched?
    Ms. Evans. Each of the initiatives, if they have an outward 
facing component--it depends on how they were set up, and that 
is why they were put into the portfolios that they were. So if 
there is a public facing component, each of them track outputs, 
so to speak, number of hits, number of visits, those types of 
things. What we are doing right now is working with those 
initiatives to ensure that when we publish these statistics--
most of them are using a tool called ``Web Trends'' which does 
do it in a standardized way--that we are making sure that we 
count them the same way so that it is an apples to apples 
comparison. Right now, based on all of them, and I know Norm 
could give you some specific ones especially on the OPM ones 
because those are very citizen oriented, obviously, that we 
have seen upward trends on all of them and on all of the 
activities. If you want specific highlights, we have them and 
we track them for each of the initiatives and we keep a tally 
of the statistics. So we would be glad to provide those to you 
if you would like to have those.
    Mr. Putnam. I would, because what I am really interested 
in, more than the outputs, are the outcomes. In other words, 
what percentage of visitors to Yellowstone made their 
reservations on Recreation.gov as opposed to having to call 
someone? What percentage of people applying for a job in the 
Government who successfully went through the entire process did 
so with as little paper as possible? What percentage of travel 
vouchers within the Government are handled completely on line? 
What percentage of the comments on potential regulations are 
posted on line versus the old fashioned way? What percentage of 
GSA's surplus purchases are made on line by going to your Web 
site and saying, oh, that is a nice boat, or ring, or VCR that 
they took out of some drug dealer's house, I want to buy it? 
That is what we are really getting at is how effective is e-
government for the people. And I would like to hear from any or 
all of you on your piece of that.
    Ms. Nelson.
    Ms. Nelson. We are tracking those measures as well. I will 
say there is a learning experience here. One of the issues, for 
instances, is keeping track of the number of comments that are 
submitted through Regulations.gov, as an example. That is an 
important measure to know. We believe we probably will not meet 
the earliest estimates for those milestones in terms of how 
many comments we wanted to have submitted through 
Regulations.gov for a number of reasons.
    Mr. Putnam. You said you do not believe you will meet?
    Ms. Nelson. I do not believe we will. A couple of reasons. 
One is, it does fundamentally mean changing the way people do 
business. And what we are seeing is many people go to 
Regulations.gov to do the search across the Federal Government, 
it is wonderful for that, many people go there to look at 
information across the Federal Government, but when it is time 
to actually submit the comments, most of the people who are 
submitting comments are very knowledgeable about D.C. and the 
way the Federal Government operates and they're likely to go 
either to the Department of Transportation site or the EPA site 
or those agencies that already have e-dockets and just file 
those directly there. Many comments here in Washington, as you 
know, are organized through associations, so large comments get 
compiled through association. They, too, will often go directly 
to an agency and submit comments either in writing or 
electronically through e-mail directly to an e-mail account. 
That does not mean just because those comments are not coming 
in through Regulations.gov, it does not mean they are not 
coming in electronically. Many are coming in via e-mail. Some 
are still coming in via paper.
    So what I think we need to do is reevaluate what success 
means and not get too caught up in how many comments actually 
get filed through Regulations.gov. What is important is that 
they do come in electronically and they come in in the most 
efficient way possible. We do want them to come in on Web forms 
through Regulations.gov, hopefully, because that results in 
less work for the agency receiving them. The second option is 
coming in electronically via e-mail. Again, less work than 
coming in on paper but they still need to get converted in the 
docket system. The one we really want to eliminate are those 
coming in via paper because then they need to be scanned. So we 
have to be careful about that measure of how many comments come 
in through Regulations.gov because it does not mean they did 
not use Regulations.gov to find the issue, to search, to do the 
research, and to ultimately then submit comments that might not 
have come through that particular door.
    Mr. Putnam. That is a fair point. And we can solve that. 
But what I am curious about is whether at the end of the day 
you all really believe that people are utilizing the e-Gov 
services. I just asked staff, and it is now over 90 percent of 
my constituent mail is electronic. Now part of that is anthrax, 
part of that is Ricin, and part of that is the fact that they 
bake it and shake it and nuke it before it gets to us and it is 
6 weeks old before we get it. But that is a pretty staggering 
figure for people weighing in on the issues.
    Mr. Enger.
    Mr. Enger. An example I think of utilization is our USAJOBS 
site. Last year we went live on a Monday with the new USAJOBS 
site, the site was totally redesigned from the old site. On the 
Friday before we went live we had 20,000 people a day going to 
the old site. On Monday and over the weekend we had 200,000 
people on the site. We increased in several days tenfold the 
site utilization. At this point in time, we are averaging on 
some days 300,000 people a day on the site. That comes out to 
something like 70 million people a year are coming to a site 
and using the site. This is approximately eight- to tenfold 
increased utilization over the previous old USAJOBS site. We 
also are getting many, many more resumes on the site. We will 
have annually now 700,000 resumes coming into the Federal 
Government from this new USAJOBS site. We have very, very 
detailed statistics on the site. So I think to answer your 
question, we can quantify metrically, we can show how the site 
utilization has increased dramatically by citizens looking for 
Federal jobs. We also plan by the end of this year to be able 
to show that 82 percent of all civilian applicants are using 
this site to find a Federal job.
    Mr. Putnam. Dr. Strawn.
    Mr. Strawn. Mr. Putnam, I think the NSF experience with 
FastLane is illustrative here. That is our first generation 
grants.gov and it took us 2 to 4 years of urging our proposing 
community to make the conversion to electronic proposal 
submission. Now that the process is completed, we are at 
virtually 100 percent. And I predict that after the same 
conversion process Grant.gov will have equal effectiveness.
    Mr. Putnam. How do you advertise or market Web-based 
services in the government? Ms. Jameson mentioned Pueblo, CO 
site. There used to be a commercial with a train leaving a 
station and everybody yelling about Pueblo, CO, and the phone 
number and all that kind of stuff. How do you get the word out 
about the Web sites?
    Ms. Jameson. In terms of FirstGov.gov, we have a public 
service ad campaign that we run, this will be the second year. 
And, of course, FCIC with Pueblo has run campaigns for years. 
So we do an ad campaign that is very effective.
    I want to say one thing about that last question. We feel 
that we are pretty close to the citizen in terms of general 
information that they want and we are seeing that the number of 
people who are asking for hard copy is going down, but slowly. 
There is a segment of the population that still wants the 
booklet. But the number of phone calls is holding pretty 
steady. And we are also hearing that and we have research that 
I can provide to you that they like having the option. The 
citizens like the Web for research on a lot of topics, but then 
when they reach a difficult thing and they need a more 
comprehensive answer, they want to call. And so we try to 
provide all those communication channels and we think they are 
important.
    Mr. Putnam. Ms. Evans.
    Ms. Evans. What I would like to say is that overall, on all 
of these initiatives, many of the metrics that we have been 
measuring to date has really been dealing with the technical 
deployment of these solutions. And it does speak to the heart 
of the issue that you raise, which is outputs versus outcomes. 
We are now in the process of going back and looking at all of 
the initiatives again because it is one thing to have an 
initiative 100 percent technically deployed, it is another 
thing to have the initiative really achieving the outcomes that 
it was intended to be.
    There are a few really good examples, such as USA Services 
and IRS Free File, which really have developed a marketing plan 
using multiple service channel deliveries for their target 
audience of who they want to use that initiative. So what we 
are now in the planning process of doing is going back and 
working through the Council of Excellence in Government, as 
required under the E-Government Act, to reach out to the 
citizenry and really identify what is the target audience for 
each one of these initiatives, ensuring that the initiatives 
are aligned with measurable outcomes where we have good metrics 
that will really show that, yes, we are bringing value to the 
program.
    The other piece of this is that overall the initiatives 
will be tied again through the PART process to the programs 
that they are supporting. So if they are supporting a specific 
program, like GovBenefits, which supports multiple program 
areas, we need to ensure that the metrics that we are measuring 
their performance by, that our IT investments are complimenting 
the overall program areas. So we are going back now and looking 
at all of those because those really are very good questions. 
We have been very focused on the technical deployments and now 
we really want to be focused on achieving the results.
    Mr. Putnam. Thank you very much. Mr. Clay, you are 
recognized.
    Mr. Clay. Thank you, Mr. Chairman. I will start with Ms. 
Evans. Ms. Evans, at our hearing on e-government in the Spring 
of 2003, GAO had indicated that most of the business plans for 
the electronic government projects lack several elements that 
GAO considers critical for this type of a business plan. What 
has your office done over the past year to improve those plans 
among the agencies?
    Ms. Evans. We went back and we have looked at several of 
the weaknesses and several of the improvements that needed to 
be done. One good example would be governance structures that 
need to be put in place to ensure that there is proper 
management and oversight. Several of the initiatives have gone 
forward. They do have a structure that is in place. Ms. Nelson 
can talk about specifically was put in place for e-Rulemaking 
to be able to address several of the issues that have gone 
forward. We have ones in place and I have a list of ones that 
are in place for the initiatives, and we have done them on 
things like Grants.gov, e-Authentication, e-Rulemaking, 
Business Gateway, SAFECOM, Consolidated Health Informatics, the 
Geospatial initiative, e-Payroll, and several of the others. So 
we are working through each of the recommendations that GAO has 
made to ensure the success of the initiatives.
    Mr. Clay. Let me ask you, can you describe for us the 
efforts your office has made, if any, to improve library and 
community center access to the electronic government 
initiatives underway? Is this an area that perhaps deserves 
more attention?
    Ms. Evans. Currently, the E-Government Act requires me to 
do specific things dealing with government information and 
content management. We have work groups that have been set up, 
and included in the e-Government Report is a specific timeline, 
that we are working in partnership with the multiple 
communities, one of which is the librarians. So that then is to 
be able to move forward and make government information more 
available out. NARA is also involved in those activities, too.
    Mr. Clay. I will move on to Ms. Koontz. Would you mind 
sharing with us your thoughts on the government's 
responsibility toward those without access to the Internet. In 
other words, is the digital divide a threat to the goals of a 
more transparent and accessible government envisioned under the 
e-government agenda, or have you given that any thought?
    Ms. Koontz. Obviously, I think we are in a transitional 
period from manual copies to the electronic world. And it is a 
transition that I do not know how long it is going to take. But 
probably for the foreseeable future we are going to have a 
certain amount of parallel systems. I mean, we see the Internet 
penetration going up all the time. But there is a segment of 
the population that is not yet served by the Internet, although 
through the library systems they can, in many cases, get 
access. And I believe that the E-Government Act provides in 
many ways for people to continue to have access regardless of 
that situation, to the paper documents.
    Mr. Clay. Thank you. As we all know, funding for e-
government has been short-changed in the past two budget 
cycles. Most projects being currently pursued do not identify 
funding sources. This is for you, Ms. Koontz. Given that most 
agencies face shrinking budgets in 2004 and will likely for the 
near future, how will the lack of clearly identified funding 
affect the timing of implementation for e-government 
initiatives?
    Ms. Koontz. One of the major challenges that we identified 
in our most recent work is agencies having workable funding 
strategies. We saw over and over again that those agencies who 
had--and it is connected to collaboration as well--that those 
who had good collaboration with their partner agencies and with 
stakeholders and were able to work out consensus on how funding 
was going to be provided to the e-government initiatives, to 
the extent they did that, they were more successful. I have to 
admit, of course, it is not a perfect process because if an 
agency does not have the money, they may not be able to 
transfer it. But this collaboration and funding strategies are 
very important to the ultimate success of the projects.
    Mr. Clay. Mr. Wagner, what do you envision as the hallmark 
of a successful e-government initiative throughout GSA? What do 
you believe are the key services and efficiencies GSA can offer 
through a successful e-government initiative?
    Mr. Wagner. I think the first test is that something is 
used and useful. And I think the chairman's questions on 
outcome measures gets to that to some degree. For GSA, we tend 
to be inwardly focused to the government's internal efficiency 
and effectiveness. So if I look at e-Travel, I am really 
looking at saving money, but I am also looking at enhancing the 
customer experience. If you only look at the cost side, you run 
into problems. So travellers benefit, money is saved. 
Authentication, to the extent that we are sharing a common 
system that is used across the government, then we have 
success. If we have a common system that everyone ignores and 
they use something else, then we have failed. Federal asset 
sales where we are selling things, the test there is net 
revenue. We have gone from a model which said, gee, the 
cheapest way I could post it, that is not what counts. It is 
how much money you bring in from the sale of the assets. So 
there really tend to be a balance of dollars and cents savings 
and customer satisfaction.
    Mr. Clay. Ms. Jameson, would you please describe the 
benefits to be expected from the contract for an enhanced 
National Call Center which you plan to sign next month. What 
steps will you take to ensure that the National Call Center has 
the capacity to process the volume of calls it will receive?
    Ms. Jameson. Yes, sir. There are a number of benefits. I 
will mention a few here and I will be happy to provide all of 
them that are provided for in the contract to you later. But 
several of them that are very important are, this will allow 
the ability for callers to leave messages and with a specific 
time they would like a call back, which has not been in our 
previous contract before, to make appointments by leaving a 
message on a machine, and including personal interviews that 
may be required, like for visas. It provides for the increased 
capability for increased languages should the need arise. This 
contract is done for a 5-year period so we tried to anticipate 
anything that may be needed in the future. Those are a few 
things that are in the new contract.
    And then as far as the capacity, this contract is set up 
for an enormous capacity. It actually has five different 
companies that will work together. One company will go first 
and should the capacity expand, it will go to the next company, 
and on down through five different companies for capacity. So 
it has an enormous capacity. I think we are being very adequate 
for the 5-years. I doubt we would ever reach that. Even for 911 
we never extended the services that we have now with the 
current contract.
    Mr. Clay. Will the caller get a live person?
    Ms. Jameson. They can or they can get a message. Actually, 
they have a choice now. I guess 20 to 25 percent of the callers 
do prefer to get their information by recording.
    Mr. Clay. How will they confirm an appointment? How does 
that process work?
    Ms. Jameson. Someone calls them back.
    Mr. Clay. They will call them back?
    Ms. Jameson. Yes, sir.
    Mr. Clay. OK. All right. Thank you for that response. Mr. 
Enger, OPM has previously stated that the e-Payroll initiative 
will yield $1.1 billion in savings. When and how will these 
savings be realized?
    Mr. Enger. We had studies made on this and we are 
projecting that the savings will be realized by the year 2011. 
Essentially, the savings are coming from shutting down 22 
redundant payroll operations and all of the infrastructure, the 
equipment, the software required to maintain 22 separate 
payroll centers.
    Mr. Clay. Has economic efficiency been the only motivation 
behind the consolidation of Federal payroll systems, and have 
agencies been receptive to the technological changes made the 
process?
    Mr. Enger. Well, there are two parts to the e-Payroll 
initiative. One is to standardize civilian payroll processing. 
And the second part of that is to, in effect, consolidate 
civilian payroll processing. So there are really two parts to 
it that are equally important. What we are doing is we are 
moving to more common standards, a more common process whereby 
we have the same framework and the same structure to process 
pay. What we are doing is we are simplifying the payroll 
structure and that moves you toward efficiencies by having more 
commonality, more simplicity. You actually are moving into a 
world where you can actually look at commercial off-the-shelf 
software to process Federal payroll. So, in effect, we are 
moving toward consolidation. Longer term, we are looking for 
technology replacement because what we are doing short term 
here is we are consolidating into legacy systems, legacy 
software, legacy payroll systems, and the next phase is going 
to be to identify what modern solution, what modern software, 
what modern package or packages can we use to have further 
efficiency to process Federal payroll.
    The bottom line here will be twofold. One is that we will 
reduce the cost to pay a Federal person. Right now, looking at 
the existing providers, they run from $125 to $250 a year per 
employee or per W-2. Our goal is to get down to $97 per 
employee. So one part of it is, yes, dollar savings. But the 
second part is to have just a more efficient Federal payroll 
system.
    Mr. Clay. Thank you for your response. Ms. Nelson, as you 
know, the rulemaking process at an agency like yours can be 
contentious with many diverse stakeholders and interested 
parties. Can you characterize for us how e-Rulemaking has made 
the research of and offering comments to the Federal agency 
rulemaking process more citizen friendly or user friendly?
    Ms. Nelson. Thank you, sir, I can. As you mentioned, EPA, 
while it is a small agency compared to many cabinet 
departments, is one that does issue many, many regulations and 
those regulations can be quite complex. One of the things EPA's 
own e-docket does for us and for the citizens is it allows for 
the search of critical information across agencies. So you can 
take a complex issue like mercury, lead, something relevant 
today, and search and find information regardless of the 
program within EPA that might have open a docket regarding that 
particular issue, or dockets in the past on a particular topic. 
That was not so easy before EPA had its own e-docket system and 
when Module II is fully in place you will be able to do it 
across the Federal Government.
    The second thing I think it does that will dramatically 
change the comments that we get is as the docket system is up 
and running, people will be able to see the comments that are 
filed by other individuals. In the old days, comments came in, 
they went to a file room, they were in a box, and then the rule 
writer got to open the big docket and all the paper and sift 
through it and the citizens never knew what other people 
submitted unless they, too, went to that docket room and sifted 
through all the paper. But by going on line, you can see every 
day what comments somebody is submitting. And it might mean, as 
a result of reading something somebody else has submitted, you 
have a different thought, you have a different perspective, you 
have something new you want to add, you want to bolster your 
argument or your position.
    So it makes for a much more agile and, in the end, a much 
more informed set of comments that an agency will receive, 
which in the end I think results in better regulations and 
rules for everyone.
    Mr. Clay. While e-Rulemaking's first objective was 
completed through deployment of the Regulations.gov Web site, 
its second objective is partially complete and little has been 
done toward the third objective. When can we realistically 
expect to have this work completed?
    Ms. Nelson. The second objective is one that we are working 
on now, the requirements. This requires bringing all the 
agencies together and understanding their needs. Because, 
remember, what Module II or Phase II does is create that single 
docket system. We have now agreement by 20 of the partners that 
we will develop a centralized docket system, which is the most 
efficient approach of all that were analyzed. Now we have to 
understand the particulars because what that means is 20 
agencies initially will give up their own docket system. So we 
need to understand what we are replacing. You do not want to 
move to something and have less capability than you currently 
have now. Those requirements are being gathered now. We hope to 
pilot something in the Fall and we hope to start migrating 
about 14 agencies in January or February of next year. The 
goal, and it is a very, very aggressive one, it is a very 
aggressive one, is to get about 150 agencies totally migrated 
within a year from the time we start. That will be very 
aggressive.
    Mr. Clay. Thank you for your efforts too.
    Ms. Nelson. And let me just say, Module III is a voluntary 
one and that one we are working on concurrently. So it is not 
sequential. We are not waiting to finish Module II to do Module 
III because there is a subset of agencies that are interested 
in that one. The timeline for that one will go out further and 
I hesitate to give you a real date on that one. Really, a 
project depends on three core components and that starts with 
your requirements. Once you understand your requirements, then 
it comes down to how much money you have, or how much time, do 
you have a deadline, and the quality of what you want to 
deliver. We need to understand all those requirements before we 
actually understand what the milestone will be for delivering 
that.
    Mr. Clay. My final question, Mr. Chairman, to Mr. Strawn. I 
appreciate your indulgence. The grants management line of 
business has been designated by OMB as one of five areas that 
will be the next focus for e-government. What activities are 
planned for this effort? And what are the challenges inherent 
in pursuing this next stage of the e-government initiative?
    Mr. Strawn. An interagency committee has been formed which 
will be co-chaired by Department of Education and NSF that will 
investigate common ``back-office'' services for the processing 
of grants. The Grants.gov is for finding what grants exist and 
applying for them, but then the agencies are currently at their 
own ends to process those grants and make awards. We will be on 
a very aggressive schedule between now and September to plan 
for a common procedure for grant processing and award 
management.
    Mr. Clay. Thank you.
    Mr. Putnam. Thank you, Mr. Clay. Let me talk about 
Geospatial just 1 second. Last year in our oversight hearing, 
we had testimony that the Government spends somewhere on the 
order of $4 billion a year on Geospatial products and services 
and estimated that as much as half of that could be eliminated. 
Where are we on the Geospatial initiative, and particularly in 
getting a piece of that $2 billion back? For Ms. Evans or Ms. 
Koontz, Mr. Wagner, whoever wants to take a swing at that one.
    Ms. Evans. I will go first. We have been working on the 
Geospatial initiative. Through the budget process this year, 
agencies were given specific guidance about how to partner on 
the Geospatial initiative. There are some specific things that 
I think GSA would like to talk about as far as where we were 
being able to leverage things and products that they were 
buying that we intend to do through SmartBuy and those types of 
activities. I do not know if you wanted to bring that up before 
GAO says something.
    Mr. Wagner. I really cannot comment too much on Geospatial. 
I can tell you what we saved on the first SmartBuy deal in 
terms of the software license, which I believe was $57 million 
over 5 years, and that was a decent chunk of the install base 
of at least EZRE software, which is just one of the software 
packages in use. I do not really have insight into the overall 
expenditures on Geospatial. I am sorry.
    Ms. Koontz. I will just add on Geospatial that there were 
four objectives that project had and all of them are partially 
completed at the current time. The thing I would want to 
emphasize here is that the Geospatial project is a very 
ambitious project and it is not of the sort that probably ever 
could be completed within an 18 to 24 month period. I believe 
that on the issue of Geospatial standards, we probably found a 
GAO report on this subject as old as 30 years. This is a very 
difficult problem and it will definitely take some time to 
obtain the kind of transformational results that you want out 
of this kind of project.
    Mr. Putnam. What makes it uniquely difficult?
    Ms. Koontz. Well, Geospatial is based on the need for 
standards, and I think at best, the development of standards is 
a long, slow, painstaking process. In addition you already have 
the imbedded base of equipment as well. So between those two 
factors, I think by definition it takes some serious time in 
order to get through it.
    Mr. Putnam. On a scale of 1 to 10, with 10 being the best, 
Ms. Evans, where do you believe that we are today in the 
overall evolution of the e-government concept? And let me tip 
you off that last year Mark Foreman said we were at a 9 or 10 
on progress and a 5 on status. The GAO, they chickened out of 
giving a real number, but they said the direction and focus was 
rated very highly and implementation was incomplete. So what 
are your thoughts at this stage of the game?
    Ms. Evans. So Mark said that, huh? [Laughter.]
    And that is already on the record. That is great.
    Mr. Putnam. He put that on the record on his way out the 
door as a little gift to you I guess.
    Ms. Evans. And my job is to continue this and realize and 
implement this so that we are there. I would say that the 
agencies, and coming from an agency and moving into this 
position, we have done a yeoman's job of working across 
agencies to really collaborate. And e-government is more than 
just about the technologies. When this first was brought about 
everybody thought it was just primarily about the Web sites. 
But it really is not. It really, truly is business 
transformation. A lot of the efforts where we are getting 
acknowledgement for things that have gone forward and have done 
well is because there were people and agencies that are working 
together who truly want to realize the benefits.
    I think that based on some of the other questions that you 
have asked, this is our opportunity to really transform 
government and really be part of the change. So, although I had 
not really thought about ranking us, I would say that these 
really are as far as progress, Mark is right, 9 to 10 on 
progress. They really have moved out. The agencies are working 
together. But to really achieve the results and go back and 
really look at are we achieving the outcomes that we intended 
originally for these initiatives and are citizens truly 
benefiting from our efforts, I would go back and I would say 5 
is probably right there, because some of them are doing really 
well and some of them need a lot of area of improvement.
    Mr. Putnam. Who is doing particularly well? Of the 25 
initiatives, which one is the farthest along, most progress? I 
will let you answer that, and then I will give Ms. Koontz the 
opportunity to answer.
    Ms. Evans. I would say, if I look at all the statistics, 
everything that an initiative had promised it was going to do 
based on the administration's plans, USA Services has realized 
its potential. Technically, it is fully deployed based on the 
objectives that were there. They have a marketing plan that is 
in place, they have identified what their user base is, and 
they have a way to measure their success. They have multiple 
service channel deliveries and they have a way so that the 
citizen can truly interact with the government in the way that 
they would like to do, whether it is by telephone, by e-mail, 
by getting hard publications. I hope to bring that much clarity 
to each of the other initiatives so that when you ask this 
question in another few months I will be able to say all of 
them are doing that well. But that one really sticks out.
    Also, e-File really sticks out. It is technically done. If 
you are tracking the statistics, as I do and everybody else is, 
it really is realizing benefit. The last statistics I checked, 
just from home computer usage alone, 8.8 million citizens have 
filed electronically. That is a success. So those two really 
stick out. And maybe because it is tax season right now I am 
really tracking IRS. But those are the two that I would like to 
highlight.
    Mr. Putnam. That is a huge success. It is amazing how 
widely understood e-File is on taxes. It is a real illustration 
of where we can be with all of this. Ms. Koontz.
    Ms. Koontz. This is based on the original objectives that 
the projects had. There are two that have achieved all of the 
objectives that they originally laid out, which are Grants.gov 
and IRS Free File. There are five others that have achieved 
more than half of the objectives that they originally laid 
out--e-Clearance, e-Payroll, e-Training, e-Travel, and 
Integrated Acquisition Environment. That is to say that the 
other 18 that are left over, some of them have had some success 
in achieving some of their objectives. They are just not far 
along overall. And a couple, frankly, have struggled.
    Mr. Putnam. It is interesting that the top two are 
government to citizen, and the next best batch are all internal 
government-to-government-type processes. When Clay Johnson was 
in here 2 weeks ago with Ms. Evans, we had I think a very 
productive and candid discussion about ways to make this really 
work. But if you are going to transform the government and have 
the people realize that you have transformed the government and 
you will get credit for it, this is the place to get it done. 
It is such a Web-based world now. Everybody is accustomed to 
Amazon and eBay, and all of the things that they do to interact 
with one another, and they demand it of their government as 
well. And right now, we are letting them down, with a couple of 
exceptions. So this is I think an important place not just to 
save money, although there is tremendous potential for savings, 
but to demonstrate that the Federal Government is in the 21st 
century, and is agile and is citizen-centered.
    The Module III on Regulations.gov is voluntary. Is Module 
II voluntary as well?
    Ms. Nelson. Module II is not voluntary.
    Mr. Putnam. What is it about the third module that makes it 
voluntary?
    Ms. Nelson. The third module is really about changing the 
way rule writers do business on the back end. And at this point 
in time, part of the original agreement with the agencies 
coming to the table is when you have the number of agencies we 
are dealing with you have to seek some consensus. And what we 
saw was there was commonality across the Federal Government in 
terms of the processes that lead up to how rules get published, 
how people seek out rules, how people comment on rules. But 
back end processes differ within agencies; some are more 
scientific than others, some have different requirements as 
your processing rules within your agency. So what you need to 
do when you do program integration, as we have done here, is 
you look for the area of commonality and that you can achieve 
then an understanding about greatest efficiencies. And we 
decided that Module I and Module II was where there was 
commonality across the Federal Government, Module III there was 
not but people might want to come to the table voluntarily to 
begin using different tools for their back end processes within 
their organizations. That is not the part that interfaces with 
the citizen.
    Mr. Putnam. Mr. Enger, the recruitment one-stop had a fair 
amount of controversy associated with its contract. Is that 
resolved? Is that initiative moving forward according to its 
goals and objectives?
    Mr. Enger. There were some initial bumps, if you will, on 
the procurement. But at the moment, the initiative is moving 
ahead at full speed. I mentioned before the tremendous volume 
we are getting from the U.S. citizens. We also are getting 
very, very high marks on the Consumer Satisfaction Index. A 
third party measures how well the Web site is performing and we 
recently this month hit 75, which is a very, very high customer 
satisfaction based upon their assessment of how well this site 
serves them.
    In terms of all the normal criteria for success, if we 
look, going back to what I believe Karen Evans said, we have 
transformed a Federal business process, we have transformed the 
site people go to to find a Federal job. We have done this in a 
very, very short space of time. In 18 months approximately, we 
have gone from ground zero to I think a world classed 
transformed Federal business process and site. Third, we have 
metrics to prove our success. So I think these are really the 
keynotes of e-Government. You have transformation, short 
timeframe, prove your success with metrics. I think in looking 
at those criteria for e-Government, we stand tall in terms of 
meeting all of those criteria.
    Mr. Putnam. The e-Grants have been recognized for hitting 
all of their targets and milestones. As a line of business 
initiative, it is very important to a wide array of 
stakeholders. Where are we in terms of streamlining that grant 
process to bring some uniformity for States, and nonprofits, 
and local governments, and the academics to make it even more 
streamlined than it is?
    Mr. Strawn. I can speak most about the competitive research 
grant programs as opposed to the block grants, since that is 
what NSF's business is. I can tell you that we are well begun 
in terms of understanding how back office grant processing can 
be streamlined. We have already had the success of being able 
to meet our goal of processing more than 70 percent of our 
proposals within 6 months. And this is an important 
effectiveness measure, not just an efficiency measure, because 
our proposers want to know whether they have received an award 
and can expect the money or have to get busy and write another 
grant application. And we are serving our citizen customers 
better when we can more quickly process the proposals and get 
back to them.
    Mr. Putnam. We have previously heard that there are at 
least 26 different SmartCard initiatives underway in some phase 
of planning, development, or implementation. Is GSA looking 
into SmartCards based on PKI standards? And if so, how will 
that affect the strategy from a governmentwide standpoint?
    Mr. Wagner. First off, the GSA on the SmartCards. We have 
been working for several years on trying to ensure that all 
SmartCards are interoperable, compliant with a set of 
standards. So you may see 26 separate buys, some of those are 
shared buys across agencies, but we have been driving those 
toward common standards, so that at least in principle one 
agency could recognize what another agency's card said.
    In terms of e-Authentication and PKI, we are working to 
ensure that any government-issued ID could hold an appropriate 
standard PKI certificate. That is a yes.
    Mr. Putnam. But there are 26 different initiatives on this?
    Mr. Wagner. I am accepting that number from you. I do not 
know how many different buys there are under SmartCards, they 
will vary. And we are working with Homeland Security to 
standardize their look and feel, how they load certificates, we 
are working with OMB. We are actually, frankly, working with 
other players. So, for example, we have no control over the 
driver's license, the AMVA groups with States, but they have 
similar issues in terms of standards. So there is a community 
trying to facilitate all these different cards being 
interoperable.
    Mr. Putnam. You mentioned that we should begin to judge 
success at GSA on asset management, surplus property revenues 
rather than some other measures. How much revenue does GSA 
generate with the sale of surplus property?
    Mr. Wagner. It is not a huge number. I would have to get 
back to you on the surplus sales. There are other sales 
channels that different agencies do too. And the Federal Asset 
Sales initiatives is trying to funnel all of those toward a 
common approach. But I would have to get back on how many 
dollars we actually send today.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5780.112
    
    Mr. Putnam. There was some talk that other agencies were 
actually using eBay to dispose of surplus property. Is that 
common?
    Mr. Wagner. No. But that would certainly be an option. The 
current state of asset sales is we are on the verge of awarding 
a contract, and I am not privy to the internal details, but it 
is fairly soon, that means in the next several weeks, that 
would be an eBay-like, where we give our assets to some entity 
to post them and sell them on the Internet, also do 
preparation. One of the ways you make money is you put a little 
into getting the think of it as detailing your car before you 
sell it rather than selling it as is, and that is one of the 
services. And so an eBay-like solution is very much in synch 
with where the asset sales initiative is going. I do not know 
how many agencies are using eBay today. I think there are a 
couple, but I do not really know that.
    Mr. Putnam. Mr. Enger, has Recruitment One-Stop and USAJOBS 
produced an increase in the applicant pool for vacant Federal 
positions? And has there been a measurable difference in the 
ability and timeliness of filling those vacancies as a result?
    Mr. Enger. There has been a significant increase in the 
actual resumes we are receiving. I mentioned earlier, we are 
looking at roughly 700,000 new resumes per year and this is 
several times the number we had under the old USAJOBS system 
that we shut down last year. So there has been a dramatic 
increase in resumes.
    The second part of your questions was what now? What was 
the second part of your question?
    Mr. Putnam. Has there been a difference in the ability or 
timeliness in filling those vacancies as a result of the 
additional applicants?
    Mr. Enger. In the area of the time to fill vacancies, at 
the moment we are trying to establish that metric. That metric 
did not exist. That requires us working very closely with 
agencies that receive the resume from USAJOBS. It goes into 
their assessment systems and after they go through their 
assessment system, if the applicant is qualified and all of 
that, the person is hired. At the moment, we really do not have 
a good metric to say that we have decreased by X percent the 
time to fill a vacancy. What I can say is we are actively 
working to establish that metric.
    Mr. Putnam. Are the applicants who apply on line more or 
less likely to be qualified? Is it a higher qualified applicant 
pool as a result of applying on line, or less so, it is just 
that much easier to do instead of typing out a resume and 
mailing it in?
    Mr. Enger. We do not really have that information. I think 
that is the information that will be coming forth shortly 
because, as I mentioned earlier, we are really gathering good 
solid information about who the people using the site are and 
we are getting profiles of that. But at the moment, since this 
went live in August, we do not really have, if I may say the 
word, solid metrics to be able to answer the questions you are 
asking me right now. What I can say is we are actively pursing 
establishing those metrics to tell you we have improved the 
quality of hires, we have reduced the time it takes to hire a 
person or source a person by X percent. But at the moment we do 
not have those metrics.
    Mr. Putnam. It just seems to me that while I firmly believe 
that Web-based delivery of services and access to services is 
the right direction to go, making things easier and generating 
more participation does not necessarily mean that you are going 
to generate a higher level of qualified participation. It is 
just easier to do it, and you may increase the number of jokes 
or cranks or whatever you want to call it, because it becomes a 
couple of keystrokes to do it.
    Mr. Enger. What I can say, Mr. Chairman, is that we 
actually study how potential Federal applicants reacted to the 
old format whereby jobs were posted on USAJOBS. We have a very, 
very interesting video on this. We had college students who 
were graduating go to the old format used to post a Federal job 
and there was tremendous frustration after they started to look 
at the job vacancy announcement with the jargon, the 
complexity, they just mostly cursed, stood up and walked away. 
And we have this on video, the frustration people had on the 
old system trying to figure out what this job was and how to 
apply for this job. We have over there on that podium there, we 
have in the second part is a new vacancy announcement. We have 
dramatically improved how a job vacancy will appear to the 
person who wants to get a Federal job. It is much simpler, 
user-friendly, they can rapidly ascertain do I want to apply 
for this job or not.
    I am coming around to answering your question this way. We 
were losing talented, qualified people with the frustration 
with the old jobs system. Therefore, I have to believe that by 
reducing this frustration, people who would have walked away 
and said I cannot take this bureaucracy, I will apply for a 
private job, we will start getting into the Federal sector 
quality college graduates and a higher calibre of applicants.
    Mr. Putnam. That is outstanding. Bonus question for you. 
What is a histopathology technician? That is the featured job 
of the month. [Laughter.]
    Mr. Enger. Well, I will say this, it deals with disease. 
[Laughter.]
    Mr. Putnam. ``Histo techs, enjoy the pleasures of sunny San 
Diego while serving your country as a civilian.'' Does anyone 
want to take a crack at histopathology?
    Mr. Strawn. Probably diseases of the blood. I think histo 
is blood.
    Mr. Putnam. National Science Foundation comes through 
again. [Laughter.]
    The teachers pet. A-minus on the scorecard and answering 
the bonus question.
    Ms. Evans, a final question. Do you have an estimate on the 
savings to the American taxpayer that we might achieve in 
fiscal year 2005 through the continued progress in e-
government.
    Ms. Evans. I do not have the specific cost-savings for 
fiscal year 2005 right here, and I would be glad to pull it 
from the business cases to give it to you. But however, over 
the lifecycle of all the initiatives, we estimate that we 
should reach over $6 billion of cost-savings to the taxpayer. I 
would be glad to submit the specific number of fiscal year 
2005.
    Mr. Putnam. We would like that. But let me ask you a 
followup.
    Ms. Evans. Sure.
    Mr. Putnam. Not nitpicking, but $6 billion over the life of 
the program, when will we know that we are at the end of the 
life of the program, that we have fully implemented it? Is this 
a 5-year goal, 10 year goal, that we can say by fiscal year 
2008, fiscal year 2010, whatever, we will have achieved $6 
billion in savings by? What is that date that is the life of 
this program?
    Ms. Evans. Well, on these particular initiatives, we would 
like to get the utilization plan clearly defined so that we can 
answer that question for each of these initiatives. We are 
working toward getting those plans done. The business cases 
themselves for each one of these initiatives estimate what the 
lifecycle is and what the benefits are per initiative. And so 
that is how we pull them out and that is how the decisions are 
made. So several of them, like in the case of the OPM 
initiatives, and Norm could share that with us, have the 
estimated lifecycle out there with the benefits associated with 
those.
    What we are really trying to do is get all of these 
initiatives to mature. The intent is not for these to be over, 
but the intent of these are to graduate and become part of the 
mainstream way that the government does the business so that 
those benefits then accrue and you continue to earn those 
benefits and then you be able to apply as you have transformed 
those processes. So I do not know that we will ever let these 
go away. They actually will mature and they will be in the 
business lines that they belong to and they will become part of 
the business processes that they need to be.
    Mr. Putnam. That is exactly what I am asking, is at what 
point will we consider them to be institutionalized as part and 
parcel of our way of doing business and ready to tackle the 
next phase on the next wave of lines of business or the next 
whatever e-government and information technology bring us? Is 
that a 5-year goal, a 10-year goal?
    Ms. Evans. The way that we have laid out the budget and the 
way that we have looked at these initiatives, several of them 
are mature technically. And so what we are really looking at, 
and the budget guidance gave specific directions to the 
agencies saying that you need to move into a fee-for-service 
approach so that it addresses the issue of how they will have a 
sustaining model to go forward to ensure that they can, based 
on the business value that they provide to their partners, that 
they will continue to mature. We gave specific guidance dealing 
with things such as e-grants, recruitment one-stop, Geospatial, 
and e-learning, that those were ready to move forward and get 
into a fee-for-service approach with the agencies.
    The fiscal year 2005 budget does recognize that, based on 
several of the recommendations that GAO has noted as they have 
gone through here, that several of the other initiatives need 
to continue to move forward. Also, the budget is set in a way 
that will support them to their maturity in the 2005 process. 
It is intended, though, that at the end of 2005, the rest of 
these will be mature and should have moved into by 2006 into a 
fee-for-service model, if appropriate. So that is the intent, 
that they will be mature and graduated by 2006.
    Mr. Putnam. All right. Opportunity for final comments from 
any of our panelists. Is there anything that you would liked to 
have been asked but were not? Any final remarks? Dr. Strawn.
    Mr. Strawn. Mr. Chairman, I am in the process of meeting 
with all of the NSF leaders of all of the e-government projects 
that we participate in. I am about half-way through with those 
meetings, I have been very encouraged by the reports from our 
project leaders. This is a very ambitious and complex set of 
initiatives that we are working on, in my opinion. We are 
further along than I thought we would be at this point.
    Mr. Putnam. Ms. Nelson.
    Ms. Nelson. Similar. Just to build on that. One of the 
things that is most striking to me is much of what you are 
seeing here today represents the first of its kind in the 
world. So when we talk about benchmarks and original estimates 
and milestones, in fact, many of those were developed really in 
a very uninformed way because there was nothing to benchmark 
against. We are doing what we are doing here where no one else 
has done it before. So I agree with what Dr. Strawn has said.
    In State government, I was director, as you said, for 
program integration and effectiveness office and that was just 
integrating a Department of Environmental Protection air, 
water, and waste programs. I am shocked, frankly, based on my 
experience, how much progress we have made in these initiatives 
in just 18 months. Considering the Federal Government, 
considering what is often considered a very bureaucratic 
process, we have made tremendous strides. I never would have 
guessed, given my State government experience, that you could 
take some of the initiatives that we have here today, complex 
initiatives, and break down some of the barriers between 
Federal agencies and actually accomplish what has been 
accomplished to date. It is pretty remarkable because many 
people here are doing this without a blueprint. There is 
nothing to benchmark against. There are no other footsteps to 
follow in.
    Mr. Putnam. Mr. Enger, would you like to add anything?
    Mr. Enger. Yes. I would like simply to reinforce what was 
just said. When I joined the government 2 years ago and looked 
at these five OPM initiatives, I was skeptical that this much 
progress could be done in this space of time. Because the 
impression that you have is that the government is a government 
and things do not move very rapidly in government systems. I do 
believe that what we have been able to show here with e-
government is that change can take place rapidly, old systems 
can be transformed. And I think with e-government you have 
broken the ice. I think you have shown a path here that with 
intelligent planning and leadership and the right choice of 
initiatives, you can in effect improve how the government 
operates.
    I would also like to say with Karen Evans here, we have 
worked very closely and had strong support from OMB and I think 
that much of our success at OPM has been this close partnership 
and strong working relationship between OPM and OMB, both Karen 
Evans and, before her, Mark Foreman. Thank you.
    Mr. Putnam. Ms. Jameson.
    Ms. Jameson. I do not have any further comments, just to 
say thank you again for your support.
    Mr. Putnam. Yes, ma'am. Mr. Wagner.
    Mr. Wagner. I guess I think that we have done a lot. It is 
not so much process, it has been individuals, it is certain 
people who make a difference on making this work. And the 
second thing is it only works and has worked because it is 
program-driven. It is not caught up in the technology world but 
it is driven by program initiatives, and I think that is why we 
have achieved what we have done.
    Mr. Putnam. Ms. Koontz.
    Ms. Koontz. I will just add that the discussion on 
performance measures I think was very interesting. One of the 
things that we noted, if you look at our attachment to our 
statement where we give a progress report on each of the 25 
initiatives, you will find that in many cases the performance 
measures are not reported, and at least in some cases, there 
are not performance targets yet associated with them. 
Ultimately, the success of the projects will be on outcomes, 
and this is something important I think for both OMB and the 
agencies to focus on in the near future.
    Mr. Putnam. Ms. Evans, did you hear that?
    Ms. Evans. Mr. Chairman, thank you so much. This really is 
an opportunity, and I think the way the panel is structured 
today really shows a difference of how the government is moving 
forward. I am very excited that I have the opportunity to 
really work on these initiatives and work to make e-government 
a realization and a reality for the citizen. As you know, I 
have been in government a long time and to be able to be given 
the opportunity, and have this administration who is really 
committed to results, and to be a part of this transformation 
that is occurring, every day I think it is a wonderful thing.
    I appreciate the oversight that your committee gives to us 
on this, but this really is different. This really is 
transformation. We really are about results. And every person 
who comes to government every day is there to make a 
difference. I think that this is just a wonderful thing for us 
to do. It certainly is a challenge. But for me to be given the 
opportunity to do it and to really be committed to this, and 
this administration is committed to achieving the results, we 
will be a citizen-centered government through the use of e-
government. Thank you.
    Mr. Putnam. Thank you very much. We appreciate all that you 
do and your accessibility to this subcommittee. It is very 
helpful as we are all partners in progress to making this 
entire effort successful.
    I would like to thank all of our panelists for their 
contribution to our oversight efforts. As OMB's self-imposed 
deadline for implementation of the original ``Quicksilver'' 
initiatives nears, this hearing has served to provide a helpful 
update on the status and it provided, frankly, a picture of 
what obstacles to implementation presented themselves, how they 
were resolved, and which obstacles remain. I am very pleased 
with where we are, the progress that has been made. Frankly, it 
has been one of our more happy hearings in a while.
    I want to thank Mr. Clay for his participation in the 
subcommittee today and all the work that he does.
    In the event that there may be additional questions we did 
not have time for today, the record will remain open for 2 
weeks for submitted questions and answers. We look forward to 
many more good progress reports on the status of e-government.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 4:36 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5780.113

                                 <all>

</pre></body></html>
